<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                    

                         [H.A.S.C. No. 116-73]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

                      YEAR 2021 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                             MARCH 4, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-864                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
JARED F. GOLDEN, Maine               TRENT KELLY, Mississippi
ELAINE G. LURIA, Virginia, Vice 
    Chair
ANTHONY BRINDISI, New York
              Phil MacNaughton, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                           Sean Falvey, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Wittman, Hon. Robert J., a Representative from Virginia, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy, Research, 
  Development and Acquisition, Department of the Navy; VADM James 
  W. Kilby, USN, Deputy Chief of Naval Operations, Warfighting 
  Requirements and Capabilities; and LtGen Eric Smith, USMC, 
  Deputy Commandant, Combat Development and Integration, 
  Headquarters, United States Marine Corps.......................     4

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    35
    Geurts, Hon. James F., joint with VADM James W. Kilby and 
      LtGen Eric Smith...........................................    39
    Wittman, Hon. Robert J.......................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bergman..................................................    73

Questions Submitted by Members Post Hearing:

    Mr. Vela.....................................................    77
    Mr. Waltz....................................................    77
    
.    
DEPARTMENT OF THE NAVY FISCAL YEAR 2021 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, March 4, 2020.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
CONNECTICUT, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Courtney. Good afternoon, everyone. This afternoon, the 
Seapower and Projection Forces Subcommittee meets to hear 
testimony from the Department of the Navy on the fiscal year 
2021 budget. Before us today are Assistant Secretary of the 
Navy for Research, Development and Acquisition, James Geurts; 
Deputy Chief of Naval Operations for Warfighting Requirements 
and Capabilities, Vice Admiral James W. Kilby; and Deputy 
Commandant for Combat Development and Integration, Lieutenant 
General Eric Smith.
    Gentlemen, thank you for being here today.
    On February 10, the Department of Defense presented to 
Congress a Navy budget that is at odds, many of us believe, 
with their own stated goals of achieving a 355-ship fleet. 
Instead of the 10 ships that we expected to see this year, we 
received a proposal, as the Congressional Research Service 
reported, for just 7, 2 of which are salvage ships or tugboats. 
Instead of 54 ships through 2025, we have a budget that cuts 
that number by 22 percent to 42 ships over the next 5 years.
    This budget represents the lowest number of combatants 
requested in nearly a decade. And to put this plan in context, 
it puts us at a shipbuilding rate and fleet size over the next 
5 years below what was projected under the last administration, 
which was pursuing at the time a 308-ship goal.
    One of the most infuriating changes in this budget is 
cutting the Navy's program of record for production of two 
Virginia-class submarines per year to one. This comes as 
combatant commanders have repeatedly warned of the looming 
reduction in attack submarine force levels that will see the 
fleet decline nearly 20 percent within this decade, beginning, 
ironically, in 2021, the same year the President's budget 
strikes a Virginia-class boat.
    Congress has strongly supported the two-a-year build rate, 
and specifically, the second 2021 attack submarine. Led by this 
subcommittee, the conference report for last year's NDAA 
[National Defense Authorization Act] stated the clear position 
that Congress expected the Navy to budget for two submarines in 
2021. We authorized and funded a $200 million increase in 
advanced procurement to support procurement of the submarine. 
To date, we have provided at least $1.1 billion towards this 
boat.
    This baffling move was made even more confusing based on 
testimony that we have received so far in full committee. Last 
week, for example, HASC [House Armed Services Committee] heard 
testimony from the Chairman of the Joint Chiefs that it was not 
in his best military advice to pull an attack submarine out of 
the budget. The Acting Secretary of the Navy explained that he 
was informed of the decision only after last-minute budget 
moves were made without Navy input. The Chief of Naval 
Operations indicated that his top unfunded priority is the 
restoration of funding for a second attack submarine. And the 
Secretary of Defense, despite submitting and defending a budget 
that cuts the submarine in 2021, stated that he personally 
believes that we need even more attack submarines than 
currently planned.
    On February 12, Ranking Member Wittman and I wrote to the 
Secretary of Defense requesting the Navy's 30-year shipbuilding 
plan by February 27. Our hope was that this plan would help our 
subcommittee make sense of the change in direction this budget 
represents for shipbuilding and the submarine fleet.
    I say request, but in reality, this plan is required by 
Federal statute to be submitted with the budget. That 
requirement is clear. It does not say that the Secretary may 
present a 30-year plan at the time of his choosing. It says 
clearly that the Secretary shall.
    A few days ago, the Secretary wrote to Chairman Smith 
indicating his position that submission of the budget's 5-year 
planning projection is sufficient. Let me be clear. A 5-year 
plan is not sufficient, according to the law. This subcommittee 
has produced shipbuilding marks as part of the NDAA year in and 
year out, relying on the 30-year requirement in order to make 
long-term investments, which is inherent to shipbuilding, 
unlike other Pentagon acquisition programs.
    So, today, all Congress will see before we mark up the 
defense bill is a limited 5-year plan, a 5-year plan that, as a 
matter of plain fact as verified by the CRS [Congressional 
Research Service], puts us on a path to barely reach more than 
300 ships within the next 5 years, let alone 355 or 390 anytime 
soon.
    As our witnesses and members of this panel know all too 
well, shipbuilding is a long game with progress measured not 
just in years but in decades. Without a fuller understanding of 
what informs this request and where it goes from here, 2021 
risks being a lost year in shipbuilding that will take years to 
recover from.
    So, to our witnesses here with us today, I say we can and 
we must do better. Our panel has a hard-earned reputation for 
punching above its weight and producing tangible results for 
our Navy and Marines Corps. You can expect to see us do that 
again this year as we begin work on the 2021 defense 
authorization mark for seapower programs.
    And now, it is my privilege and honor to yield to the 
ranking member, my good friend, Congressman Rob Wittman.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 35.]

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
    VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Well, thank you, Chairman Courtney. I want to 
thank you so much for your leadership and for your steadfast 
conviction to make sure we have the Navy that this Nation 
needs. I really appreciate that. And I want to thank our three 
witnesses for joining us today.
    Gentlemen, the administration has been consistent with 
their drive to expand the capacity of the United States Navy. 
President Trump foresaw the great power competition and called 
for a 355-ship Navy. Unfortunately, his vision and foresight 
have not been replicated in the budget request. This relentless 
drive on behalf of legacy curmudgeons to hold back 
implementation of the National Defense Strategy will continue 
to delay the required reform.
    It is apparent that we need to move toward a maritime 
strategy that will require both long-range strike and naval 
power, yet the budget request continues to emphasize COIN 
[counterinsurgency] operations and legacy force structure 
allocations. We have to do better.
    Of all of our Nation's defense procurement programs, 
shipbuilding is by far the longest, most complex of any 
acquisition program. Shipbuilding requires years of planning, 
billions of dollars to capitalize the shipyards, and lengthy 
periods of ship construction. Yet there are some in the 
administration who continue to believe that the industrial base 
is a faucet that can be shut off and shut on. Some believe that 
in the short term we can add shipyards to expand our ship 
construction capacity. The reality is starkly different.
    I believe that this shipbuilding budget request is an 
attempt to begin to turn the faucet down. We are actually on 
the precipice of putting a number of shipyards out of business. 
And unfortunately, the administration's overestimation of the 
capacity and the elasticity of the industrial base will have 
negative repercussions for a very long time.
    Central to these concerns is the budget request to order a 
single submarine. We are on an inextricable path to reduce our 
attack submarine force structure from 51 to 42 submarines. The 
combatant commanders are begging for more undersea strike 
capacity, yet this budget request seeks to perpetrate this 
egregious deficit. The administration compounds this 
shipbuilding deficit by an accelerated ship retirement schedule 
that includes four littoral combat ships, four cruisers, and 
three amphibious ships. Some of these ships have only been in 
commissioned service for 6 years or less. The math on these 
retirements, compounded by an anemic shipbuilding request, 
points us in the wrong direction.
    Gentlemen, I am not a mathematician, but building 8, 6 of 
which are warships, retiring 11, doesn't get us to 355 by 2030, 
period. Can't get there.
    Furthermore, the administration continues to ignore the 
plight of our Nation's sealift. The Navy may point to the 
budget request to procure two used ships in fiscal year 2021. 
Unfortunately, the administration also endorsed a legislative 
proposal that would virtually eliminate that any new ship 
construction effort for these sealift vessels. General Franks, 
the then VII Corps commander during Desert Storm, understood 
the value of these forces when he was quoted as simply saying, 
``forget logistics, you lose.''
    In sealift, the only change from last year is that our 
sealift forces, aged another year, can only accomplish 40 
percent of the required tasking, and the administration is 
prepared to accelerate the decline of this essential logistics 
force.
    As to the Marine Corps, I am actually delighted with the 
vision that the Commandant has placed before our Nation. I 
continue to be impressed with this change and look forward to 
more actionable items to implement a long-needed turn to the 
future of military conflict. My hope is that the Marine Corps 
is timely in implementing these needed changes.
    Again, I appreciate the chairman for his leadership and 
having this important hearing, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]
    Mr. Courtney. Thank you, Mr. Wittman.
    And now, Mr. Geurts, I think you will be presenting a 
statement for the panel?
    Secretary Geurts. Yes, sir.
    Mr. Courtney. Okay. The floor is yours.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
NAVY, RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF THE 
     NAVY; VADM JAMES W. KILBY, USN, DEPUTY CHIEF OF NAVAL 
  OPERATIONS, WARFIGHTING REQUIREMENTS AND CAPABILITIES; AND 
 LTGEN ERIC SMITH, USMC, DEPUTY COMMANDANT, COMBAT DEVELOPMENT 
   AND INTEGRATION, HEADQUARTERS, UNITED STATES MARINE CORPS

    Secretary Geurts. Chairman Courtney, Ranking Member 
Wittman, distinguished members of the subcommittee, thanks for 
the opportunity to appear before you today to address the 
Department of the Navy's fiscal year 2021 budget request. 
Joining me today are Vice Admiral Jim Kilby, Deputy Chief of 
Naval Operations for Warfighting Requirements and Capabilities; 
and Lieutenant General Eric Smith, Deputy Commandant for Combat 
Development and Integration.
    Sir, with your permission, I intend to provide a few brief 
remarks for the record.
    Mr. Courtney. Without objection.
    Secretary Geurts. We thank this subcommittee and all of 
Congress for your leadership and steadfast support of the 
Department of the Navy. Your efforts to fully fund the fiscal 
year 2020 budget for 12 ships helps provide the stability and 
predictability in funding that enable us to build and sustain 
the naval force the Nation needs, and in so doing, execute the 
maritime component of the naval defense strategy--or National 
Defense Strategy.
    Since the start of fiscal year 2019, we delivered 11 
battleships to the fleet, including most recently the future 
USS Tripoli, our newest large-deck amphibious ship. Today, with 
the USS Tripoli delivered, we have 78 ships under 
construction--or under contract and 46 under construction. We 
expect to take delivery of 12 ships in fiscal year 2020 and 
award contracts for 8 additional ships this year.
    As we continue to modernize the fleet, we have also focused 
on ship and aviation maintenance, delivering higher aircraft 
mission-capable rates, improved on-time deliveries of ships for 
maintenance, and reduced maintenance backlog for our nuclear-
powered fleet.
    We achieved key milestones on the USS Gerald R. Ford [CVN 
78], returning her to sea after a post-shakedown availability 
and qualifying all aircraft in her air wing and readying her 
for deployment, while launching the future USS John F. Kennedy 
ahead of schedule at a 16 percent reduction in labor hours from 
CVN 78. We are on track to begin full construction of Columbia 
[class of submarine] in October of 2020, with 80 percent 
detailed design complete at construction start, the highest 
level of completion at construction start in the modern 
shipbuilding era.
    Our use of agile and innovative contracting approaches have 
leveraged the many authorities Congress has provided, enabling 
us to deliver our ships, aircraft, and weapons with over $25 
billion in savings to the taxpayer over traditional acquisition 
methods.
    Although our budget reflects the hard choices we had to 
make given a flat budget, our 2021 request builds on these 
prior investments and improved acquisition outcomes in order to 
provide the best balanced force in support of the National 
Defense Strategy for the resources available. It continues key 
investments in advanced technology and modernization, 
prioritizing recapitalization of the ballistic submarine force. 
It supports the sustainment and readiness recovery to deliver 
credible forces today, while pursuing increased lethality and 
modernization to ensure readiness for the future fight. It 
includes procurement of 44 battle force ships within the FYDP 
[Future Years Defense Program], and aims to continue a healthy 
industrial base that is critical in meeting this demand.
    And we appreciate the continued strong support Congress has 
always given us in preserving that industrial base for our 
shipbuilding programs.
    Thank you for the strong support of the subcommittee and 
for all that you have always provided our sailors, Marines, and 
their families. And thank you for the opportunity to appear 
before you today. We look forward to answering your questions.
    [The joint prepared statement of Secretary Geurts, Admiral 
Kilby, and General Smith can be found in the Appendix on page 
39.]
    Mr. Courtney. Thank you, Mr. Geurts.
    And again, we have got a lot of members here who I am sure 
are bursting with questions, so I am going to kick it off. And 
I am not going to, you know, belabor the point, but I do feel 
it would be helpful on the question of the Virginia-class 
submarine program just to get a couple sort of baseline bits of 
fact out which will help us as we move forward.
    So, you know, right now, the Block IV contract is underway 
in operation, the two-a-year construction schedule teamed up 
between Virginia and New England, and then Block V, which was 
just executed at the end of the year, again, contemplates a 
two-a-year cadence. By cutting a sub, you know, we are going to 
reach a year where that is going to dip down to only one in 
terms of the construction schedule.
    Columbia,, as you point out, begins construction late this 
year. The real ramp-up starts in about 2023.
    So, the question I have is--two questions. Number one, I 
mean, do you have confidence right now that the shipyards are 
capable and have the capacity to handle the two-a-year build 
rate as required under Block IV and at least the first 4 years 
out of the 5-year Block V contract?
    Secretary Geurts. Yes, sir. I had less confidence, 
candidly, 6 to 9 months ago where we were seeing some of the 
Block IV deliveries starting to move to the right, and the 
concern was could we maintain the cadence we needed to and not 
add risks to Columbia. And I have said repeatedly before, the 
number one way to reduce risk to Columbia is a stable, well-
performing Virginia program.
    And so, at that time, we started working very closely with 
the shipbuilder to get that end of Block III start of Block IV 
performance stabilized. I am happy to report, over the last 6 
months, that has stabilized. My concerns are not now can they 
execute; they just need to continue to execute. At the time, we 
created a, you know, potential relief valve for that 10th ship 
in the multiyear. At this point and in the decisionmaking that 
is coming up to our budget release, it was more an 
affordability issue, not an execution issue. I am confident 
they can execute the ship.
    Mr. Courtney. Well, I appreciate that because, I mean, it 
is almost like there is an intuitive sort of reaction that 
maybe, you know, the bandwidth is getting too clogged and it is 
too much. But the fact is, again, as you said, there has been 
some really good work done, the construction readiness review 
process, which I think has helped both yards get the modular 
units delivering on time. Is that correct?
    Secretary Geurts. Yes, sir. If you recall, last year, we 
also added a program executive officer for Columbia, and so the 
goal out of both sides was have a team focused on getting 
Columbia ready, getting the design ready, getting that ship 
ready to go, and then have a team dedicated to getting Virginia 
where it needed to be. It wasn't where it needed to be, you 
know, with high confidence. It is now. And so, our intent is to 
build on that. We have the flexibility, given the budget is 
included this year to bring that ship back into the multiyear. 
As we were in the end game, it just, frankly, became an 
affordability issue with all the other constraints on the 
budget.
    Mr. Courtney. Okay. So, again, we have sort of, you know, 
confirmed that the two-a-year build rate is, you know, 
executable. I guess, then, the question is, then, if we lose 
that last sub in the Block V contract, which would be around 
2023, which is at the same time ramp-up is occurring, I mean, 
the fact is that it may add--that sort of confluence of events 
may add risk to Columbia. Is that a correct way to view things?
    Secretary Geurts. Yes, sir. I mean, I think submarine 
construction is very sensitive to cadence. And the number one 
thing we can do is stability and get on a cadence. And, you 
know, as we went from one a year to two a year and trying to 
hold that cadence, that is where we need to preserve it. It is 
also very sensitive to dips in workload, and so there is some 
work we are going to have to do at the end of 2023 with the 
shipbuilder to understand and manage any potential dip in the 
workforce requirement, because the last thing in the world we 
want to do is be laying off folks right before we need to climb 
this giant Columbia wall. And so, I think that is--we will have 
to watch that closely, work closely with you and the 
shipbuilder, with the committee here and the shipbuilder, to 
manage our way through that piece.
    If we cut short and have a large gap at the end of Block V 
before having Block VI move in and Columbia startup, that will 
be a risk to execution, not only in Virginia, but in Columbia.
    Mr. Courtney. So, again, I think it is really important to 
sort of flush that out. Today, you know, we have had probably 
100 or so submarine suppliers sort of crisscrossing the Hill, 
and I talked to a number, as well as Mr. Wittman did, this 
morning. This budget, frankly, has kind of sent a little bit of 
a shock wave in terms of just their own decisions about 
investing in capital, you know. So, you know, it may be 
intuitive that, you know, this budget kind of lessens and makes 
it easier for execution, but in fact, it really actually 
creates disruption.
    The other point I just wanted to sort of quickly walk 
through with you is that if, let's say, you know, this cut goes 
through. Next year or the year after, Congress wants to say, 
well, you know what, we actually probably should build--add a 
submarine later. The fact is that the cost of doing that would 
be cheaper than--or excuse me--more expensive than the cost of 
trying to restore this year's submarine. Is that a safe--is 
that an accurate analysis?
    Secretary Geurts. Yeah, absolutely. At some point, you 
don't have the capacity of getting back to cadence, to speed 
cadence up. This is the year, I would say, we need to either 
add that ship in this year or then we will just have to, you 
know, work on that at the start of Block VI. So, we are very 
sensitive kind of to that cadence and not--I don't think there 
is a way to execute three in a Columbia year with a high degree 
of success.
    Mr. Courtney. So, with that awareness that it is really now 
or never if we are going to protect this build rate, I mean, I 
think that is very helpful.
    You know, as the subcommittee moves forward in terms of 
trying to address this, and again, there is high interest on 
both sides of the aisle to do it, I just want to again, as in 
the past, whether it was the Bush administration or the Obama 
administration, the subcommittee has been willing to work with 
the Navy and obviously all of your team to try and find a way 
to address obviously what I think is, you know, people really 
are very concerned about.
    So, with that, I will now yield--okay--yield to Mr. 
Wittman, who----
    Mr. Wittman. Yeah. Thank you, Mr. Chairman. I am going to 
defer my time until later, and I am going to go to the 
gentleman from Wisconsin, Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Wittman.
    Mr. Geurts, thank you for--we were discussing your deep 
northeast Wisconsin ties, which I very much appreciate. In your 
testimony, you implicitly call out northeast Wisconsin for 
delivering the JLTV [Joint Light Tactical Vehicle] 4 months 
ahead of schedule which we are very proud of that. I hope the 
Marines are appreciating that as well.
    I am hoping you can clarify something on the record. Last 
week, I spoke with Secretary Modly about the additional budget 
that would be needed in order to buy, build, man, and maintain 
a fleet of 355 ships compared to the current 293-ship fleet we 
have today. His answer was about $120 million to $130 billion 
over 10 years. And I just wanted to make sure that that was, in 
fact, the all-in cost, including manning and maintaining and 
not just acquisition.
    Secretary Geurts. Yes, sir. Maybe two points to reinforce 
Secretary Modly's comments. One, that is the all-in cost. It is 
not just the procurement cost. So that includes the operating, 
maintenance, all the bills that are associated with it. And 
two, we don't see there is a significant industrial base limit 
to achieving that. We will have to work closely with the 
industrial base, and obviously, there is a lot of concerns in 
the near term, but we see that is achievable from an industrial 
base perspective.
    So, it is not industrial base limited, but that dollar 
figure was not all just procurement for ships. It also included 
the manpower, and Admiral Kilby can provide additional detail, 
if needed.
    Mr. Gallagher. Sure. Well, maybe that is a followup. I 
appreciate that.
    And I think then on Friday, Secretary Modly spoke at the 
Brookings Institute and talked about the potential for a 390-
ship fleet or even potentially a 435-ship, if you include 
unmanned vessels. So same question. How much additional budget 
would the Navy need in order to afford the total ownership cost 
of a fleet of that size, 390 ships excluding unmanned or 435 
including unmanned?
    Admiral Kilby. So, sir, thanks for that question. The 
additional ships alluded to by Secretary Modly are, of course, 
being discussed right now. We owe that discussion with the 
Secretary of Defense, but they are not the same--it is not the 
same scale as battle force ships as we characterize them today, 
destroyers and submarines, et cetera. So, I think some of those 
ships will have less of a total build, but there will still be 
an increase.
    So, the types of things we have studied over the last 
couple of years with the Marine Corps and the Navy are smaller 
amphibious ships to help support littoral operations in a 
contested environment, smaller logistic ships to help support 
distributed maritime operations. So, I don't want to say they 
will have no cost, but they will have a lesser cost. So, I 
think that overall figure, as granular and macro as it is, 
includes all appropriations and would not be adjusted well out 
of limits from what was described in that original statement 
from you in the testimony.
    Mr. Gallagher. Well, I guess what I am trying to crudely 
point out, less eloquently than Chairman Courtney and Ranking 
Member Wittman have in other ways, is there is an obvious 
disconnect here between the considerable additional resources 
we are hearing directly from the Navy in order to meet that 
statutory goal of 355, if not a 390- or 435-ship fleet, and 
what we have been presented in this budget.
    I will say, though, while we await the coming of the INFSA 
[Integrated Naval Force Structure Assessment], like Godot, it 
shall arrive at some point, there are things we know we need to 
build now, right, in the FYDP? Maybe you could speak to that, 
Secretary Geurts.
    Secretary Geurts. Yes, sir. The budget we sent over 
demonstrates those ships we know we need to build, the ships we 
need to build in 2021, and again, not all we would have liked 
to have built or planned to build the year prior. The ships in 
there under any scenario I can imagine are solid ships. We need 
to build those ships. They are foundational, as are the ships 
we have in the Future Years Defense Plan.
    What we are really talking about as we talk about INFSA and 
the 30-year shipbuilding plan a little bit is what is the 
longer term trajectory, and with those battle force ships, what 
other complementary ships might we want to include in that mix 
to work that overall joint strategy to compete and win on a 
global scale.
    Mr. Gallagher. And in the 26 seconds I have left, Secretary 
Geurts, can you give us a sense of whether frigates will be 
produced in enough numbers to require two yards to produce 
them?
    Secretary Geurts. Sir, our priority right now on frigate is 
to do the down selection credibly, fairly, and with great 
confidence, and get that ship, whichever one is selected, built 
and in the fleet as soon as possible. My guess is once we get 
that ship in the fleet, that ship will be in high demand, and 
we will look for ways to accelerate it and more than likely 
build more of it. That is a guess. But our first priority is 
execute the source selection, pick the right ship, execute that 
lead ship well, and then get into serial production. From 
there, I foresee a lot of different branches and sequels in 
terms of how many.
    And if we can follow up, you know, I think Admiral Kilby 
can discuss how that will fit into the future architecture.
    Mr. Gallagher. Well, I am out of time.
    Secretary Geurts. Again, there is no architecture I have 
seen where frigate isn't a major piece of it.
    Mr. Courtney. Thank you, Mr. Gallagher. I think that is the 
first time Samuel Beckett has been quoted at a subcommittee 
hearing.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    Mr. Secretary, Admiral, General, good to have you here. 
First of all, I want to echo the statements by our chairman and 
our ranking member on the considerable concern we have on the 
sub build rate. We have been to England, seen how the tubes are 
getting ready for the Columbia, but we have seen the 
infrastructure building up a workforce. That industrial base, 
it does not turn on and off like a spigot. I know you 
understand that. But as it was just mentioned, somehow it feels 
there is a disconnect here.
    But I just want to shift a little bit and talk about what 
we have and how do we get it to the place we need it in the 
time we need it. So, the turbo activation exercise, which was 
60-some ships with only 64 percent available for tasking, and 
that is just can they get it running and moving. Does not test 
the equipment on board, the cranes, the lifts. In fact, I would 
suggest that in any future demands, that there needs to be spot 
on, not every ship, but to see what on the ship is working. 
Because it can be moving, but if you can't load it, you are 
dead in the water. And that seems to be a real void that is 
taking place.
    But let's talk about that organic surge fleet that we are 
trying to create. Year after year, we hear we are not getting 
close. This year, we had the study done, and it proves that. 
What are we doing?
    Secretary Geurts. Yes, sir.
    Mr. Norcross. It really changes fundamentally. We keep 
talking about it, and two ships doesn't do it.
    Secretary Geurts. Yes, sir, it doesn't do it. We are kind 
of taking a three-pronged approach. I will kind of address 
maybe your questions on the Ready Reserve Fleet at the macro, 
and then I think a lot of where we have been doing a lot of our 
study and thought is logistics and kind of in a placement even 
larger than that which, quite frankly, we were not where we 
needed to be in the 2016 force structure assessment on that 
major part of the fight. It was focused mostly on the battle 
force ship, and a lot of work has been done. And where we are 
talking with the Secretary is really how do we address all the 
other parts of the battle and not the main battle force.
    In terms of--I would agree with the strategic sealift. We 
need to really get after it. We have put in additional money 
for maintenance, about $200 million more, just for maintenance 
of the ships we have. As you know, we put in money in 2021 and 
in 2022 to get after buying some used ships, and we have some 
money in 2023 to buy new.
    Candidly, I will tell you, we are not at the place yet 
where I am comfortable with the cost benefit of buying the new. 
And so, we have got, you know, early returns from industry. 
Those are very expensive ships, you know, over a billion 
dollars for some of these ships, and that is not, quite 
frankly, not going to be affordable.
    And so, our effort right now is, first off, get maintenance 
money to the fleet we have, to your point, make sure, well, as 
old as they are, they can at least perform the mission they 
have. Buy some used vessels quickly, and then really work hard 
on this CHAMP [Common Hull Auxiliary Multi-Mission Platform] or 
whatever program we need to do to get numbers out there greater 
than onesie, twosies.
    Mr. Norcross. So that is the physical side, the ship. Let's 
talk about the fleet, the mariners that we don't have. How do 
you plan on supplementing that? The ones we have are not 
exactly spring chickens, and the replacements aren't coming in 
anywhere near what you need.
    Secretary Geurts. I think we have to work, you know, 
closely with MARAD [United States Maritime Administration] in 
that, you know, capacity as well. That is a little more on 
their side of the fence than ours, but it is something that we 
have got to address.
    And then I would also say we have to look at not just the 
strategic, can we get it to the theater, very important. That 
is the first piece. The second piece is once we get it to the 
theater, can we get to the Marines and sailors or soldiers who 
need it, or airmen. That is the other piece. So, we have got to 
fix strategic lift, but we have got to do more than that. We 
have also got to look at the intra-theater and the last 
tactical miles element, particularly in a contested 
environment.
    Mr. Norcross. So, with 45 seconds to go, if you were called 
on today to replicate our lifts that we had during the first 
Gulf war, can we do it?
    Secretary Geurts. We would do it, but it would be painful, 
and we probably wouldn't do it with the level of confidence 
that the Nation needs. And even if we did the lift of Desert 
Storm, the next fight isn't going to be a Desert Storm. That 
will be necessary but not sufficient. So, we have got to do a 
lot more than just the strat [strategic] lift. We have got to 
get logistics right for the whole theater in a contested 
environment.
    Mr. Norcross. Thank you.
    I yield back.
    Mr. Courtney. Thank you, Mr. Norcross.
    General Bergman.
    Mr. Bergman. Thank you, Chairman, and thanks to all of you 
for being here.
    You know, as I watch the TV screen and knowing that, let's 
say, other countries are watching us, not all of whom are our 
friends, and they look at us having the discussion, and they 
are putting their chess pieces in their development, it kind of 
unnerves me a little bit that in our attempt to be, my word, 
honest brokers on both sides of the dais here, that we are 
being too predictable.
    In shipbuilding, you don't--we use the term often about the 
bigger the ship, the longer the input on the rudder before you 
actually get a turn in that ship. Again, 355, 435, 390 just 
rings as arbitrary, okay. So, the point is, we have got to--we 
have to come to some number. But I don't understand why, with 
some of the ships that we are going to take out of commission 
long before their service life is over, why we wouldn't--can 
you give me a reason why we wouldn't keep them in some level of 
capability in the event something happened? So, when there was 
a natural transition of the passing of the baton, help me here 
with the why of taking these ships out of commission early in 
their service life.
    Admiral Kilby. So, Congressman Bergman, I will start and 
get joined by Secretary Geurts, if necessary, but when we put 
together our budget, we followed four priorities. One was to 
fully fund Columbia; second was to restore readiness; third was 
to increase capacity and lethality and modernization, to not 
allow those ships to not be equipped with what they needed to 
be relevant; and fourth was capacity.
    So, as we tried to put this together in a challenging 
budget, we viewed those ships that we identified to be 
decommissioned as less valuable, not not valuable, but less 
valuable for the other things we wanted to fund on that 
prioritization scheme.
    Mr. Bergman. But this is taking money from operating the 
ships to put it into other programs. Is that right?
    Secretary Geurts. Sure.
    Mr. Bergman. Okay. If it is not about money, it is all 
about money, right? Okay. That is some of the issues that we 
count on you all in your philosophical and intellectual honesty 
in your mission to create that naval, you know, force of the 
future.
    And speaking of that naval force of the future, Lieutenant 
General Smith, you know, during the hearing today, we have 
heard much about the shipbuilding budget. We just talked about 
it. And we certainly look forward to seeing, you know, the 30-
year shipbuilding plan. One of my concerns about the Marine 
Corps is the ability to give input to the plan as the Corps. 
Has the Marine Corps been provided an opportunity to comment on 
or contribute to the Navy shipbuilding plan?
    General Smith. Congressman, we have. We have from the get-
go. I have been in 33 years, and the level of coordination and 
integration, not just cooperation. Cooperation signifies that 
we are being friendly. Integration and coordination has never 
been better. Admiral Kilby and I work together literally every 
day. I see him more than any other Marine Corps general 
officer. We have been in the INFSA and in all of our studies 
that we have done for the last couple years, but most 
especially the last, say, 8 months, we have been literally side 
by side working through this so that the Marine Corps needs and 
interests in support of distributed maritime operations, our 
contribution to those fleet commanders, has been completely 
incorporated. And the hard choices are being made, sir, but we 
are completely tied at the hip so that we can support the fleet 
commander.
    Mr. Bergman. And I have just a few seconds left. I would 
ask you to take this for the record. This is about 
incorporating training and simulation. You know, when General 
Clark was--excuse me--Admiral Clark was CNO [Chief of Naval 
Operations] and put all the billions of dollars into the Great 
Lakes Naval Training Center there, I mean, it really was a 21st 
century vision of training sailors in their basic training to 
get them ready for the fleet. And kudos to him and his vision 
at the time.
    I believe I would like to hear, we would like to hear, from 
you especially, about how we are going to incorporate the 
training of the future utilizing simulation, utilizing--
basically getting the sailors ready for the new technologies 
before they even walk on deck, you know.
    [The information referred to can be found in the Appendix 
on page 73.]
    Admiral Kilby. Yes, sir. I will take that for the record. 
If we have time in another round, I can give you some more 
discussion.
    Mr. Bergman. Well, you know, let's put it this way. When 
you have got something to see, let's take a look at it, or a 
plan or a timeline or whatever. Again, there is no hurry on it, 
but it is going to be important that we keep ahead, because 
what changes quickly is the digital side of things. And what we 
are using as training capabilities, the ship's hull is probably 
going to be the ship's hull.
    Secretary Geurts. To your point, sir, we have to make sure 
we match the absorption rate. We can generate a lot of 
technology and incorporate it fast. If we can't absorb it, it 
won't do anything productive for the fight.
    Mr. Bergman. Thank you, Mr. Chairman.
    Mr. Courtney. Thank you.
    Mrs. Luria.
    Mrs. Luria. Well, thank you, gentlemen, for being here 
today. And I feel somewhat like we did this in reverse because 
we did the full HASC hearing about the Navy prior to the 
seapower one specifically. But over the course of those 
hearings, we have heard a lot of information that has been 
somewhat conflicting and then been added on top of.
    So, at the original hearing, Acting Secretary Modly told us 
that the 355-ship Navy that has been mandated by law and that 
we are seeking to achieve, that he thought we could get there 
in 10 years. And then I just heard you say today, this is a 
quote, I wrote it down, that there are no constraints on the 
industrial base. Did I understand you correctly that you feel 
that there are no constraints on the industrial base to get us 
to a 355-ship Navy in 10 years?
    Secretary Geurts. Yes, ma'am. What I was--I was just trying 
to communicate there is the industrial base could support 
getting to 355 ships in 10 years. That doesn't mean the 
resources available--to get there are available, are in the 
budget. But in terms of when I look at the industrial base and 
the capacity we have, we have the capacity to get there. It may 
not be exactly matched to the perfect set of ships to get 
there, but we have----
    Mrs. Luria. Were you trying to say it is like a pick and 
choose? Like, if they can build something in Wisconsin, in 
Representative Gallagher's district, we will just build that 
even if it is not what you want just so we can get to 355? Is 
the number important or the capability? I am getting even more 
confused.
    Secretary Geurts. So, I apologize for confusing you. What I 
am saying is we have the industrial capacity within the United 
States to build that many ships in 10 years. There are some 
areas where----
    Mrs. Luria. But what we are doing to our industrial base 
and our suppliers, and there is no better example than with the 
Virginia-class submarine in delaying the submarine, is the fact 
that they want to invest. They want to build the ships. They 
want to hire and train the workforce, but we keep changing the 
plan. And last year at these hearings, I brought up the 30-year 
shipbuilding plan as an example. Well, if the 30-year 
shipbuilding plan changes every single year in years 1 to 3, 
not the end of it, 20 to 30 years from now when we could expect 
there are changes, but if it changes the immediate plan every 
year, how is it a plan? How can the industrial base plan for 
that?
    And moreover, I believe last week, Acting Secretary Modly 
also said at a Brookings Institute breakfast that the number 
wasn't even 355. It is 390 or more in this much-anticipated 
force structure assessment. So, can you comment further on 
that, give us some insight? And then the 390, what is that 
timeframe? Is that also within a decade?
    Secretary Geurts. Ma'am, I guess I will hold my comments in 
terms of industrial base to the 355. And I believe the question 
was is it possible. It is certainly possible. There is not a 
fundamental limitation to get there, other than the dedication 
of resources. Three hundred ninety, again, it is a different 
set of numbers, different set of assumptions. I am not going to 
comment on the kind of timeline to get to that part. I am more 
responding to the NDAA on the administration's position that we 
aim to get to a 350-plus Navy. We can do that from the 
industrial base side. Certain elements of the industrial base 
are more limited than others, submarines being one, but we have 
the capacity to----
    Mrs. Luria. I mean, think about the workforce and the 
industrial base. One-quarter of the shipbuilding and repair 
that happens in the entire country happens in Hampton Roads, 
right where Mr. Wittman and I live and work. And we talk to 
these suppliers and industrial base partners every day when we 
are back in the district, and we hear about their challenges.
    Even if you just look at the submarines, we spoke to the 
suppliers of the fuel for our submarines. You know, we put them 
in a precarious situation when the demand signal is not steady 
enough for them to be able to predict and maintain the activity 
that is absolutely essential to maintain that critical national 
security pipeline of fuel for our nuclear reactors, for our 
carriers and our submarines. And I think that this year's 
budget with this removing the Virginia-class submarine puts 
that supply chain at risk.
    And to come in and say that there are no constraints on the 
industrial base? I mean, I truly think that that sounds like we 
are tone deaf to what we are hearing every day from our 
industrial base, specifically in an area like Hampton Roads 
where a lot of this work takes place.
    So, I believe my time is about to expire, so I yield back.
    Mr. Courtney. Thank you, Mrs. Luria.
    General Kelly.
    Mr. Kelly. Thank you, Chairman.
    I just started--I think you guys are doing a great job. I 
think you guys may be getting beat up over other people's 
issues, but I just want to state this. I was here in 2016 when 
I came on this committee, and we fought extremely hard with 
Chairman Thornberry and Ranking Member Smith at the time and 
now vice versa to get you guys the budget, the top line, that 
every single service asked for, and we did away with CRs 
[continuing resolutions]. We have had one in the last 3 years.
    But we continue to get pushed back on us we don't have a 
large enough budget. It is a flat-line budget, all these 
things. We fought extremely hard. We took hard votes on both 
sides of the aisle. We got beat up over it. We have given the 
Navy, Air Force, Army, Marine Corps every single thing that you 
asked for, without exception. The personnel numbers, the 
operations, maintenance budgets, the new ships, everything. We 
planned for that thing, and it goes back to what Mrs. Luria was 
talking about. And then we keep changing it every year. And the 
bottom line is capabilities driven. We have got to have the 
right ships in the right mix at the right time. But we can't 
decide that this year, change that plan next year.
    Ingalls is in my district--or not in my district, in my 
State. I consider the whole State, I guess, my district. But it 
is hard. We just told them we are not going to build a $630 
million America-class LHA [landing helicopter assault ship] due 
to reprogramming of the budget. So, when are we going to fix 
that? When are we going to build that ship? What are we going 
to do to get back in line?
    Secretary Geurts. Yes, sir. For that ship, actually in the 
2021 budget, we have accelerated that. It was going to be a 
2024 ship. We have actually accelerated it to a 2023 ship. I 
will acknowledge the reprogramming of the money. We will have 
to put that in the budget to make up for the money that was 
reprogrammed to execute that ship, but the Department of the 
Navy is committed to that ship. In fact, like I said, we have 
accelerated that in the budget.
    And to the point, I think my comment on the industrial base 
got a little bit--I didn't present it clearly. I understand 
that it is all about consistency and long strategic planning 
and having stability in the industrial base. I have heard from 
others that we don't, you know, even if----
    Mr. Kelly. No, I think you did. Let me reclaim my time 
because I have got very short, and I just want to talk on some 
really--General Atomics is in Tupelo, Mississippi, and they 
are--the second Virginia-class submarine, which is built by 
them, did it fall out of the budget as a result of concerns you 
had with the industrial base or was it strictly budgetary?
    Secretary Geurts. Sir, it was, from my perspective, 
strictly an affordability issue.
    Mr. Kelly. And then I want to talk just a little bit about 
something else that is pretty near and dear to me. Recently, I 
was at the Surface Navy Association annual symposium, and we 
had discussions about boat and ship requirements from shore-to-
ship medical evaluation, and we had some hard questions. And we 
have got to have the soft power which are also necessary for us 
Marines and Army guys who want to make sure we have a place to 
get evac'd [evacuated].
    Where are we and what are you doing for our medical 
evacuation, and what are we going to do to have those plans in 
place?
    Admiral Kilby. So, sir, I will start and get joined either 
by General Smith or Secretary Geurts. But in the last, I would 
say, 2 years, we have recognized--we have tried to revitalize 
the logistics approach. One of those Rs, we call them, five Rs, 
is to resuscitate a vein. To that end, we, thanks to you, were 
able to program a kit in an EPF [Expeditionary Fast Transport] 
to add Role 2 care ambulance capability to medevac [medical 
evacuation] a larger number of sailors or Marines than we have 
had to in the past. I think that is absolutely where we need to 
go. We are continuing on that path to identify that 
requirement, but that is the start of that. That doesn't 
obviate the requirement for Role 3 care, and we are committed 
to taking care of our hospital ships and coming up with a more 
solvent plan for that in the future. But Mercy and Comfort 
are--they are both [Role] 3 care ships for now.
    Mr. Kelly. Thank you. I mean, that matters. I will tell 
you, soldiers and Marines and the Navy and Air Force guys who 
are on the ground fight a lot harder when they at least know 
they have an opportunity to get that magic hour and to get back 
and to have a chance of lifesaving. That is really important. 
And also, the use of that in soft power when we have a Puerto 
Rico or somewhere where we have hurricanes, and you guys can 
roll in with those ships. It is just a great, great way for 
America to show we don't just flex our muscles, we help people, 
too.
    And with that, I yield back, Mr. Chairman.
    Mr. Courtney. Thank you, Mr. Kelly.
    Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    Secretary Geurts and Admiral Kilby, last year, in front of 
this committee, Vice Admiral Merz called the Flight III DDG 51 
[Arleigh Burke-class destroyer] the most powerful warship on 
the planet. I noted that it has dual air and ballistic missile 
defense capabilities that he is really looking forward to 
seeing in the fleet starting in fiscal year 2023, you know, 
with that introduction that the Navy would be going Flight III 
all the way through.
    I think it was just yesterday, I've got a story here that 
you might have seen where the EUCOM [U.S. European Command] 
commander, General Tod Wolters, was calling for two more 
destroyers to theater in EUCOM at Rota, I think specifically 
looking for ballistic missile defense purposes, just the 
ability to have a good, strong presence in the Black Sea, you 
know, and a good spot to be able to get into the Mediterranean 
and the Middle East, to get up to the North Atlantic, North 
Sea. But, of course, the Navy had expressed some concerns, I 
think in recent years, about pulling destroyers away from 
carrier strike groups. So I think, you know, plenty of evidence 
that we need to have the capacity to meet demand and not have 
to, you know, pick winners and losers in terms of what is the, 
you know, more important priority here.
    So, I wanted to ask, current multiyear procurement for DDG 
51s only goes through fiscal year 2022. What are your plans 
regarding fiscal year 2023 and the potential for another 
multiyear procurement for the next Flight III?
    Secretary Geurts. Yes, sir. In terms of acquisition, I will 
answer that and maybe ask Admiral Kilby from a warfighting 
perspective, but I would agree with your assessment. They are 
an awesome warfighting machine. We want to get as many of them 
out as we can.
    In terms of acquisition strategy, as we look to that, you 
know, we have not laid any multiyear yet, but we have saved, 
you know, billions of dollars through those effective 
strategies. So, given the number of ships I believe we will be 
procuring in terms of DDG 51s after 2022, I think we will have 
another multiyear. We will put the geometry of that together as 
we kind of lock down the exact details of the shipbuilding 
plan.
    Mr. Golden. Yes, sir. And you are the second person that 
has noted the savings that comes with doing it that way. And 
having that flexibility, obviously, is a good thing.
    Admiral Kilby. I would just add, sir, from an operational 
perspective, I echo everything everyone said. We need the 
Flight III DDG because of its attendant air and missile--or 
advanced missile defense radar, for all the capabilities it 
brings that Admiral Merz discussed last year and I reiterate 
this year. I think the path forward we have to work out. There 
is a large surface combatant in our future because the Flight 
III is dense. We have got about as much as we can get out of 
that.
    Mr. Golden. Maxed out. I know. I have gotten really 
familiar with the platform, but there is going to be a gap. We 
are not there yet.
    Admiral Kilby. So, I don't think it obviates the utility of 
the Flight III, though, in the interim and maybe well into the 
future, so I just want to support that requirement and need for 
that ship.
    Mr. Golden. I am also just reiterating some of the comments 
of my colleagues. I have spent a lot of time up at Bath Iron 
Works. A lot of the members of this committee have highlighted, 
I think, legitimate concerns about the funding proposal for 
shipbuilding this year.
    I wanted to take note of a second-order effect of just 
waxing and waning shipbuilding rates and the uncertainty that 
that causes with the workforce. We are not just talking about 
the companies themselves and their confidence levels; it is the 
workforce. One might always find a willing company, but they 
can't build ships without a skilled shipbuilding workforce.
    You know, I could tell you with the DDG 1000, they started 
working with new tools, a new sequence of putting together a 
destroyer, then they were whipped ripped right back to going to 
the DDG 51. Now they are relearning an old skill set. We have a 
very skilled old workforce from the boom cycle now trying to, 
you know, be matched with a young, inexperienced workforce as 
we are coming out of a bust. That is the bathtub really. That 
is the need for consistency right there for the workforce. 
Before we lose these people as they go out and retire, we are 
trying to hire at the same time. Those young folks are looking 
for consistency. They want to know that this is a career and a 
good-paying job and that they should be making those 
investments in the skills that it requires to first get and 
then keep that job.
    So, let me just encourage everyone to, please, you know, be 
supportive of the efforts of this committee to get you the 
resources that you need with consistency. You know, this is 
something the Secretary of Defense talked about in a letter to 
Chairman Smith just a few weeks ago, yet we only see 7 ships 
this year and 10 less than the 5-year projection than projected 
last year. That doesn't send a very strong signal to working 
men and women that might be thinking about making this a 
career.
    Secretary Geurts. Yes, sir. I was just up at Bath, and 
again, very impressed. The Vice, you know, actually went to all 
the shipyards other than ADDSCO [Alabama Dry Dock and 
Shipbuilding Company], and he had been in Newport News before. 
And again, I will reiterate, it is all about the workforce. It 
is about consistent, stable funding and programs. We are doing 
that in the programmatics. Again, my comment is not that we 
don't care about the workforce, and that is not a constraint. 
My comment was we have the workforce now. We have the capacity 
now to generate 355 ships if we stay on it and we have 
consistency. There are some that question whether we could do 
it whether we had the resources or not. I don't question the 
ability of the industrial base to perform, as long as we have a 
steady and consistent demand signal.
    Mr. Golden. Thank you.
    Mr. Courtney. Thank you, Mr. Golden.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Admiral Kilby, a couple of questions regarding two classes 
of ships, one apparently leaving and one coming. The LCS 
[littoral combat ship], you are going to retire four of those 
well in advance of their service life. Can you walk the 
committee through the rationale for that? And then on the large 
unmanned surface vessel [LUSV], what is that beast? What is the 
propulsion system, weapons, why, and what will she be doing in 
the fleet? Can you walk us through both of those?
    Admiral Kilby. Yes, sir. So first, LCS. Again, we follow 
the priority scheme I laid out: Columbia, readiness, 
capability, capacity. As we looked at our budget for 2021, we 
looked at how much money it would cost for DD--or for LCS 1 
through 4, $1.2 billion in the FYDP, and how much it would cost 
collectively to upgrade those ships which were our first 
models, $600 million total. And we viewed that that money could 
be applied in other areas, in accordance with that 
prioritization scheme, to produce a better outcome. We didn't 
want to do it. I think there is great capability in the LCS 
class, and we need those ships in the future to have a mix to 
allow those ships to do what they are designed to do.
    When I deployed on a carrier strike group as the commander 
in 2017, I used a destroyer to do maritime fisheries 
enforcement. That is not a great use for a DDG. It is a pretty 
good use for an LCS.
    On to the unmanned surface vehicle. I think we are still in 
the prototype stage for that. We don't want to count those 
ships now. It is premature to do that, and we have work to do 
for you to have confidence in the testing and certification of 
that capability in the future.
    So, I don't know that I have an idea on the propulsion 
system. There is a couple models out there that we are looking 
at now, but the idea of an LUSV would be to serve as an adjunct 
magazine for those frigates and other ships in a distributed 
maritime environment to allow us to have greater depth to 
operate against the adversary we think we are going to fight 
against.
    Mr. Conaway. So, apparently, I have been around here long 
enough, I was actually at the launch of the USS Fort Worth, and 
so I have been here too long. Now she is being decommissioned, 
which is weird. I didn't think I would be here that long. But 
the LCS class in general since I have been here has been almost 
an orphan looking for a job. Let's make sure that this unmanned 
system isn't the same kind of beast where we come up with a 
good idea and then discover that we then have to find a mission 
for those ships at the same time. I appreciate your great 
efforts. Keep up the good work.
    And I yield back.
    Mr. Courtney. Thank you, Mr. Conaway. I don't think you 
have been here that long, you know.
    Mr. Waltz.
    Mr. Waltz. Thank you, Chairman.
    Gentlemen, I think you are hearing from both sides of the 
aisle, we have got to get our act together. I have run a 
company, and as a CEO [chief executive officer], the main thing 
that you have to have is predictability. You have to have it. 
And I don't see how our industrial base has predictability from 
a zigzag, seesaw plan that has been coming out of the Pentagon 
in this case.
    And I think it is just worth noting--I know you all know 
this, but it is worth noting for the record. According to RAND, 
between 2014 and 2018, China launched more submarines, 
warships, amphibious vessels, and auxiliaries than the number 
of ships currently serving in the individual navies of Germany, 
India, Spain, and the United Kingdom, and will continue to 
commission ships at a similar rate, which would put it on par 
with 100 submarines in the next 15 years. I don't see how with 
what you have come to the Congress with here, that we compete 
with that, to be completely blunt and candid. So, I think I 
would love to have a follow-on sit-down and understand this 
better, because clearly, I am missing something.
    And I don't think--the bottom line is I think the Navy's 
pricing itself out of business. If you look at the cost of 
these ships with how we have to then compete, I just don't see 
with a--and I am glad some of my colleagues raised the issue, 
what we are calling a flat top line with tremendous increases 
in the last few years, with personnel costs that are trending 
to eat up more and more of that budget, how you recap, 
modernize, and procure. I am not seeing the math. So, I would 
ask for a follow-on to better understand that. If you want to 
address that now, and then I just have one followup--follow-on 
question.
    Secretary Geurts. Sir, happy to go through that in whatever 
level of detail you want. It is a very difficult equation, 
particularly when we are doing a generational replacement of 
our ballistic missile submarine force, which right now is 
about--going to be about 25 percent of the traditional 
shipbuilding budget. It will grow to about 33 percent.
    Mr. Waltz. But let's address the elephant in the room. One 
of the things that is driving up cost to an unsustainable level 
is unpredictability on the industrial base.
    Secretary Geurts. Yes, sir. I completely----
    Mr. Waltz. I mean, do you disagree? Do you agree or 
disagree with that?
    Secretary Geurts. I agree with your----
    Mr. Waltz. As a business owner, I mean, you are going to 
bake that into your product.
    Secretary Geurts. Absolutely. We are trying to manage some 
of the unpredictability by the multiyear block, by contracts 
that has allowed us to create some stability, but----
    Mr. Waltz. Mr. Geurts, it is irresponsible to the taxpayer, 
I mean, and the defense of this country. I mean, we have to do 
better. We are either going to have gaps in the outyear. At the 
same time that the size of the Chinese Navy eclipses ours, we 
are going to have all kinds of other debt and entitlement 
issues. We have to do better. And we all, I think, all want to 
be a partner here in helping you get there, but we have to do 
better than what we are receiving.
    Just in my remaining time, on the ASW [anti-submarine 
warfare] piece, again, the 2nd Fleet stating the East Coast has 
seen an ever-increasing number of Russian submarines right off 
the Atlantic. The submarines are more capable than ever, 
deploying for longer period of times with more lethal weapons 
systems, but we are seeing cuts in the P-8 [aircraft]. And 
while we have had some good success in recapping the sonobuoy 
inventory, we are also seeing requests come over to recap 
sonobuoys that aren't even in production yet. Some things don't 
make sense there. I asked Secretary Modly and the Chief to come 
back to me on that. I would appreciate that follow-on.
    And just back to my original point, the Secretary--the 
Acting Secretary in the posture hearing, you know, in a 
candid--I think a very candid moment said we are going to have 
to talk about more money for the Navy, I mean, just because the 
math doesn't add up. I don't see that happening. So, again, we 
have to--the cost driver to me is personnel and predictability 
to drive the cost of the individual platforms down, but I 
welcome a follow-on with you.
    Secretary Geurts. Yes, sir. Happy to follow-on both the 
subjects you raise.
    Mr. Waltz. Thank you. I yield my time.
    Mr. Courtney. Thank you, Mr. Waltz.
    And the last of our first round, because we have got a 
little time, looks like votes aren't until 4 o'clock, so we 
will have time for a second round.
    But, Mr. Wittman, you bat cleanup.
    Mr. Wittman. Thank you. Thank you. Well, gentlemen, thanks 
so much for joining us. I wanted to follow up on Mr. Courtney's 
original question.
    Secretary Geurts, the budget request comes over for one 
Virginia-class submarine. The CNO says on his unfunded priority 
list that adding another Virginia-class submarine would be at 
the top of his list.
    You talked around the issue of capacity in the industry. 
You talked in general that it does have the capacity to build 
more ships. Is there capacity in the industry to build that 
additional Virginia-class?
    Secretary Geurts. Yes, sir.
    Mr. Wittman. Is the reason that additional Virginia-class 
was taken out of the budget because of financial reasons?
    Secretary Geurts. Yes, sir. It was affordability.
    Mr. Wittman. Affordability. So, was it a matter of 
priorities? Was it a matter of someone saying, ``Well, we are 
going to take some money out for strategic purposes,'' that the 
bill payer was the Virginia-class submarine?
    Secretary Geurts. Sir, you know, the SECDEF [Secretary of 
Defense] has a lot of different priorities he is balancing, and 
so, you know, I was not--you know, I shouldn't speak for him on 
how he evaluated all those priorities.
    Mr. Wittman. If you were asked the priorities between the 
strategic funding that the money was taken out and the 
Virginia-class submarine, what would your professional judgment 
and opinion be to the SECDEF?
    Secretary Geurts. Sir, the SECDEF has to weigh a lot of 
those----
    Mr. Wittman. I am just asking what your--I am just asking 
what your professional opinion would be.
    Secretary Geurts. I think, quite frankly, both are 
important. We need to be able to produce the weapons for our 
platforms, and we need to be able to produce submarines.
    And to the point earlier, we also need to continue to look 
for ways, whether it is acquisition methods, creating more 
stability, enhancing the workforce, to drive the costs down of 
platforms. We have driven a lot of costs out so far. I think 
there is additional activities we can go. So, my job is not to 
make those strategic decisions as much as offer the best ways 
we know how to get capability, right ships out there at the 
right time.
    Mr. Wittman. But your job is to give the best professional 
advice up the chain of command?
    Secretary Geurts. Yes, sir. My advice was, we can execute 
that second 2021 ship should funding be available.
    Mr. Wittman. Very good. Let me ask too--and you alluded to 
this partially before--building an additional Virginia-class 
submarine this year, and building 10 as part of the Block IV 
buy, de-risks Columbia. Is that correct?
    Secretary Geurts. Yes, sir. I think you are asking if we 
went to 2-2-2 across that multiyear, does that stabilize things 
and de-risk Columbia. A stable Virginia program is the number 
one risk reducer to a Columbia program.
    Mr. Wittman. Got you. Let me ask about surge sealift 
capacity. We have been all over the place with creating the 
necessary sealift. We see that the authorization from Congress 
was to buy two used ships with the option to buy five 
additional used ships. We see that that is the direction the 
Navy proposed, but then we also now hear--well, excuse me, the 
Navy proposing to purchase used ships but also build new ships, 
a specific design for a specific purpose. Now we hear that 
there is also a plan to say we are going to move forward and 
just buy used ships. Can you give us some clarification as to 
what the path forward is for our Ready Reserve Fleet? Because 
you have the two and five authorization now. There is also a 
direction to say let's build a purpose-driven ship within the 
U.S. industry. So, can you clarify where we are and what is 
going on in timeframes for surge sealift?
    Secretary Geurts. Yes, sir. Again, I think we have all--we 
are all sensitive that we need to actually get after this 
problem in earnest, not just on the margins. The Navy laid in a 
program to, as rapidly as we could afford, lay in used ship 
purchase, two in 2021, another one in 2022, as well as laid in 
money in the outyears in 2023 for a future new-build ship.
    The legislative proposal that came over from the 
administration, I think, reflects a concern and maybe a 
misunderstanding. I think we have already been working with the 
staff. I think there was a sense we were constrained as to 
going after the used ones, depending on the interpretation of 
that statute. I think there is likely some things we can do to 
work together. In my mind, we should try and buy as many of the 
used ones as we can----
    Mr. Wittman. Yeah.
    Secretary Geurts [continuing]. Of that seven as fast as we 
can afford.
    Mr. Wittman. Yes.
    Secretary Geurts. But quite frankly we also have to work 
together that buying very expensive ships for this mission is 
going to put at risk some of the other things we need to do. 
And so, I think there is more work to go. We had an idea of a 
common hull for everything. I think after our market survey 
results, that may not be the best answer, and so more work to 
go on our side on the acquisition options and costs so that we 
can get the right balance of quickly infuse some new used ships 
to get some of the really old ships out of the Ready Reserve 
Fleet and then create a sustainable path for a new build.
    Mr. Wittman. I think you are right. I think the delta we 
see between a $60 million used ship and a projected $500 
million new ship is too big a delta. There is a lot of things 
that I think we can do, and we can have some continued 
conversations there. Let me ask one more question before I will 
go back for the second round.
    I want to talk about unmanned. The Navy is pursuing 
unmanned surface ships with Sea Hunter and with unmanned 
underwater vessels with Orca. All those have yielded, I think, 
some good information. The key going forward, though, I 
believe, is this. We can take those as single systems, and we 
can test them, and we can say: Do they perform? Can they 
operate autonomously out there? And that is a fairly simple 
problem set and mission set. What we haven't done is to say, 
how do you integrate those platforms into the mission sets of a 
carrier strike group, of a destroyer squadron, of a submarine 
deployment, whether it is Ohio-class or whether it is Virginia-
class? So the question now becomes: It is great to say, well, 
let's build a bunch of them, but just as Mr. Conaway said, the 
danger with that is building a bunch of stuff before we have a 
clear vision about how it is going to be integrated into the 
fleet, how that platform fights.
    Secretary Esper said, not unmanned, but lightly manned. So, 
there is a whole dichotomy about how you even implement these 
elements. Give me some perspective on how the Navy sees the 
path forward. Listen, we need unmanned, but my deep concern is 
this, is that we are going to jump headlong into the deep end 
of the pool, and then we are going to do a bunch of stuff. We 
are going to go, you know what, some of this stuff doesn't 
work, and now we have got a bunch of platforms out there that 
we are going to retire early because we said wrong decision. 
And, listen, I don't mind us taking risks, but you take risk on 
the small scale; you say let's do two or three of these and 
fully figure out fleet integration, and then let's ramp up the 
building. But give me your perspective on it.
    Secretary Geurts. Yes, sir. I will kind of maybe from the 
acquisition and technology perspective, and Admiral Kilby or 
General Smith from a warfighting. I think the biggest risk in 
the unmanned platforms isn't the technology. It is the 
integration into the warfight and how to best use them. I saw 
the same thing in early days at SOCOM [U.S. Special Operations 
Command] on unmanned aviation. And finding out what things 
unmanned aviation was good for and what things it wasn't good 
for and getting that balance right.
    There isn't, unlike a Ford, a huge technology leap or 
technology--there is some technology to work, and so I think a 
reasonable number of prototypes to get in the fleet in a 
reasonable number is important. We have been fairly--I would 
lean forward in the budget in terms of how many we have laid in 
as potential production. That has to be proven. We have to give 
ourselves and you comfort. We have been, you know, again fairly 
forward-leaning in that. We have options, obviously, to roll 
off of that.
    What we are really trying to do now is get enough of them 
into sailors' hands so that they can help us decide where they 
add to the mission and then how best to integrate them. Admiral 
Kilby.
    Admiral Kilby. Thanks. Just a quick addendum to that. One 
vehicle to do that is the Surface Warfare Development Squadron 
that was stood up in San Diego by Vice Admiral Brown. So that 
is under the command of Captain Hank Adams, and the benefit of 
having that in San Diego is, a lot of our West Coast COMPTUEXes 
[Composite Training Unit Exercises] happen off San Diego. So 
not only can we do the testing and certification, which I admit 
we owe you a better detailed plan. I have talked to both the 
SASC [Senate Armed Services Committee] and the HASC staffers 
about how to do that, but also that proximity of those 
exercises can allow us to employ those ships and see, and 
measure the effects and see how that integration works. So, I 
think that is one step of how we are going to instantiate that.
    Also, we are going to use unmanned in RIMPAC [Rim of the 
Pacific Exercise] and our large-scale exercises. So, I think 
you will see increasing push from us to kind of employ those 
and then report back on what we see, sir.
    Secretary Geurts. And I think of this as a scale issue. 
One, can it do something, and then is it something we want to 
scale? Two separate, important questions, and we have got to 
get that balance right.
    Mr. Wittman. I would agree. The scaling question includes, 
first, capability, and then capacity.
    Secretary Geurts. Yeah.
    Mr. Wittman. Yeah.
    Mr. Courtney. Thank you, Mr. Wittman.
    So, we have finished the first round, and again we will now 
begin the second. I will start. And I am going to do the 5-
minute clock for myself, you know, so we all get a chance to 
ask a second round of questions.
    So, you know, you mentioned that we are now at the 
beginning of construction for Columbia, which is going to be, 
as Admiral Kilby said, you know, a top priority, and that has 
been reiterated for years. In 2014, Congress passed the 
National Sea-Based Deterrence Fund, and again, that was because 
we recognized the bow wave of this cost was fast approaching. 
Given--and I think the opinion of the Seapower Committee's 
belief that it is a strategic asset much more than really a 
Navy-only asset, we felt it was justified to take it off the 
shoulders of the shipbuilding account. So far, it is in 
operation, but it is still being sort of included in the top 
line of shipbuilding, and we are going to continue to raise 
that issue with this administration as we did with the prior 
administration.
    One aspect of it, though, that was undeniably beneficial 
was the fact that we put in authorities to create more 
efficiencies in shipbuilding, continuous production 
authorities. Mr. Labs is here from the Congressional Budget 
Office, who analyzed that a number of years ago and determined 
that, in fact, it would provide real efficiencies, and at least 
help some cost relief in terms of the program.
    With the budget this year, you know, the administration is 
requesting incremental authority, which I think we welcome in 
terms of the subcommittee. Can you talk a little bit about, you 
know, again, what that benefit is in terms of the contracting 
process you are in right now, and what the downside would be if 
we did not include that incremental authority in terms of 
Columbia?
    Secretary Geurts. Yes, sir. I mean, Columbia will be 
unexecutable without the incremental funding authority. The 
authorities that have been in the fund have been tremendously 
useful. We have--you know, we have started advance construction 
on every one of the modules. We have leveraged continuous 
production to get ahead of issues, smoke out problems that have 
plagued us in the past, missile tube welding being one of them. 
So those authorities have been tremendously useful, but without 
the incremental authorities for the first two Columbias, the 
way we have it set up right now, we will not be able to 
execute.
    We will likely also need your help in the event that there 
is a CR, that, assuming the Department will request an anomaly, 
we will need your help with that. Because our intent, you know, 
to meet the timelines we have, we can't afford any delays. We 
are working hard on the contract and getting that--negotiating 
and having that all in place, and I report very good progress 
on that, but we will have to get that moving as quickly as 
possible, as soon as 2021 budget turns over on the 1st of 
October.
    Mr. Courtney. Well, if you are saying that it is 
unexecutable, that is about as much clarity as we could ask for 
in terms of getting us to move forward.
    In my last few minutes, I wanted to actually go back to 
just a housekeeping issue, which is some of the reporting on 
the delays in Block IV that was in the, you know, some of the 
press last week. And, number one, Block IV contract, just like 
Block V and its predecessors, and the same with DDGs or the 
block contract with carriers, those are fixed-price contracts. 
Is that correct?
    Secretary Geurts. Yes, sir, they are.
    Mr. Courtney. So, any delays which were reported in the 
reporting, I mean, the fact is, the taxpayer didn't bear the 
burden of any delays. Is that correct?
    Secretary Geurts. No, sir. And then--and recall on Block 
IV, we also accelerated and we gave ourselves a goal of 
accelerating those deliveries by 6 months from our nominal 
Block III. And so, in the reporting you saw--quoted a delay, 
but it was a delay against an accelerated contract delivery 
goal we had set.
    Mr. Courtney. And again, when we talk about delivery, I 
mean, there is obviously the contract date, as you point out, 
which you tried to accelerate, but then there is the 
construction delivery day. And then there is delivery to the 
fleet. And in fact, the Block IV submarines have actually been 
performing well in terms of the final, real test of, you know, 
quality and, you know, ability of the Navy to use the 
submarine. So, again, could you talk a little bit about that 
delivery to the fleet versus contract delivery date?
    Secretary Geurts. Yes, sir. I mean, some of the reporting, 
which I will call interim milestones and contract delivery 
dates, are important. But what I measure my performance on is 
delivery to the fleet. And even with the dates we talked about 
in terms of contract deliveries, we are still forecasting Block 
IV to deliver 5 months earlier, on average, than Block III to 
the fleet, somewhat remarkably 3 years earlier than Block I 
boats in terms of span time. And with very high quality.
    Mr. Courtney. Because that just reinforces the question of 
execution ability because I mean, in fact, it is a positive 
trend that we have been seeing with Block IV.
    Secretary Geurts. Yes, sir.
    Mr. Courtney. Yeah. Thank you.
    And Mrs. Luria.
    Mrs. Luria. Well, thank you. And I wanted to go back to the 
comment that you made initially, Secretary Geurts, was no 
constraints on the industrial base. Well, I had a few minutes 
to think about that during this time. You know, clearly, we are 
talking about shipbuilding overall here in this budget, but we 
are also talking about maintenance. And the cheapest ship we 
have is the ship that we have, if we maintain it properly and 
train the crew and man it and equip it. And so, I was just 
thinking through my head, looking around the waterfront in 
Norfolk, Norfolk Naval Shipyard. We are in a situation now 
where CVN 77 is in Norfolk Naval Shipyard for a 28-month 
availability. I brought this up last year. Design, Nimitz-
class, first availability, docking availability in their life 
cycle. It was 10\1/2\ months. It has extended over time. I 
understand that now we would anticipate that to maybe be 16, 
but that is fully a year over what is anticipated. And the 
reason for that is capacity because we prioritized the MTS 
[moored training ship] conversion, we prioritized the refueling 
of the Wyoming, because we had a problem with manpower and the 
public shipyard being able to accommodate that work. But it is 
all one ecosystem that is tied together. And if you look across 
the waterfront in any fleet concentration area, we are 
struggling to get these availabilities done on time, and that 
is not because there are no constraints in industrial base. 
There is a limited amount of manpower. There is a limited 
amount of facilities, and the facilities that we have, as you 
have noted, are aging, and we are not investing in them 
appropriately. The public shipyards, for example, the shipyard 
modernization, we need to put a significant investment in that. 
Do you agree? And so, I am just kind of stuck on this ``no 
constraints'' thing, because I think it is completely 
incorrect.
    But I wanted to move on to something else more quickly that 
some of my other colleagues brought up. You know, Mr. Conaway 
said that, you know, the LCS seems to be a platform looking for 
a mission. The CNO quoted at the SNA [Surface Navy Association] 
West Symposium I read, that, quote/unquote, for LCS, progress 
is being made on various mission modules, ASW, AMW [anti-mine 
warfare], surface warfare. But where are we with these mission 
modules, what is our plan, and what truly is the capability 
that we are deploying them with? And maybe Admiral Kilby is the 
one who can respond to that.
    Secretary Geurts. Yes, ma'am. All right. There are a 
thousand constraints on the industrial base, and I am happy to 
talk to you. I guess what I was saying was, if we get stability 
and efficiency, even in ship repair, we are not as efficient 
using the resources we have because of instability because of 
some of the business models. My only--I think the raw capacity 
exists if we work our way up there. But I will talk to you 
maybe separately on that because I think what I am trying to 
communicate is not being communicated clearly by myself.
    In terms of LCS, Jim, if you want to talk about where we 
are, warfighting perspective.
    Admiral Kilby. Yeah, thanks. So just the three separate 
rules, ma'am. One, the ASW package has a variable depth, active 
sonar, which would be very useful in the case of the----
    Mrs. Luria. I don't need a full summary of what their 
capabilities are. Like, what is the deployability of them? Are 
they installed on the ships? Are the modules ready? Are they 
fully developed, and our sailors trained, and are they using 
them?
    Admiral Kilby. The surface warfare module is ready to go. 
The ASW module will be ready shortly, and the mine warfare one 
will be last one due. That is why we spent----
    Mrs. Luria. So, they are almost ready, but we are about to 
start decommissioning this class of ships? I mean, do you see 
where I am going with this? There is a credibility issue here, 
and now you want to come build something new with these 
unmanned surface vessels, which once again, we haven't fully 
developed the concept or the technology in order to build them 
and/or employ them effectively.
    So, you keep coming to the table asking us to build new 
things, but we don't know how we are going to use them, how 
they fit into our strategy, and why they are important. And so, 
if we have to make choices, you know, we've got to rack and 
stack it. Nuclear deterrent is the cornerstone of our national 
security. It puts the Columbia submarine at the top. If you ask 
us where we need more capability, fast-attack submarines, we 
clearly know that there is a shortage there, yet we are cutting 
a Virginia-class submarine this year.
    So it seems like a credibility issue because we are asking 
for things that we don't even know how we are going to use and 
haven't been developed technologically, yet we are not 
necessarily prioritizing both the capabilities that we know 
that we need and the industrial facilities such as the shipyard 
modernization that is going to support our ability to maintain 
those assets. If you care to comment.
    Admiral Kilby. Yeah. Just back to the LCS 1 through 4, 
ma'am, again, it was not a we don't think those ships are 
valuable; it was an affordability decision, that the cost to 
maintain those ships and the cost to modernize them, $600 
million, was viewed as not as great----
    Mrs. Luria. That is exactly my point, Admiral. That wasn't 
what we thought when we came here and asked for the money to 
build them in the first place. We thought that they were going 
to be fully capable. We were going to develop them, deploy them 
exactly as designed, but that is not what happened. And I 
probably don't need to remind you as well of the Ford and the 
designs that we put in with catapults, arresting gear, dual 
band radar, and weapons elevators, all of which were designed 
but not operational as designed when first built.
    And just quickly, you know, the CNO also said at SNA West 
that, you know, the elevators, he gave an assessment that four 
are complete, seven will be done by the end of the summer, and 
then four more, the remaining four, by the end of 2021. But he 
also said, we are not repairing them; we are building them. So, 
we are at this point in the ship's life when it should have 
already deployed, and we are just now building them. Like it 
doesn't----
    Mr. Courtney. Last question. Go ahead and answer.
    Mrs. Luria [continuing]. Make sense.
    Secretary Geurts. Yes, ma'am. For the weapons elevators, it 
is finishing the construction of those, not repairing 
previously constructed----
    Mrs. Luria. I do not accept that answer. I have spent hours 
on the Ford. I have climbed in those elevator shafts, and I 
know that when you built them the first time, you thought you 
built them properly. So, if we are going to do semantics 
between building and repairing something that was built wrong, 
we could do that all day, but you didn't intend to build them 
twice and delay the deployment of the ship by 6 years when you 
first started building it. Is that correct?
    Secretary Geurts. That is not the way we intended to build 
that ship.
    Mr. Courtney. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Lieutenant General Smith, I wanted to follow up on the 
Commandant and his vision in the planning document for where 
the Marine Corps is going. He talked about a smaller amphibious 
ship that would operate in a more distributed way. I think that 
concept is something that he has talked about in response to 
having the ability for the Marine Corps to be more flexible and 
more adaptable, to have a little less predictability about 
where it is located, to be able to mitigate some risk, be able 
to reduce some risk. Can you give us an idea about this concept 
and how this vision would be implemented based on this year's 
budget? Because I know our interest is saying: Well, how much 
of the direction in the Commandant's Planning Guidance can be 
executed in this year's budget? So, kind of give me an idea 
about that concept and then where it starts this year and what 
path it will be on.
    General Smith. Yes, sir. So, the Commandant has stated that 
this budget, 2021, is the point upon which we pivot to the 
future force, to his vision, and you will see that then 
instantiated in 2022, 2023, and 2024. As far as the concept, 
the concept of--it is in his Planning Guidance that it would be 
illogical to place all of your resources into a few large 
amphibs. It is not that they don't have value, because they do. 
We like to say that an advanced expeditionary--the EABO, 
expeditionary advanced base operations, the best advanced--or 
expeditionary advanced base, is a floating mobile platform that 
moves 17 to 20 knots a day, which Texas math at 17 knots a day 
is 408 nautical miles in a day.
    A mix of those ships or of a future light amphibious 
warship and the, quote, traditional amphibious warship, gives 
someone like me, as a former 3rd Marine Expeditionary Force 
commander out in the Pacific, tremendous flexibility because 
getting to the first island chain and then operating within the 
first island chain, two very different things.
    And if we are going to impose costs, to your point, sir, 
and I know to Chairman Courtney's position too, about the 
pacing threat of our adversaries, they are constantly moving. 
We have to be able to impose costs and challenges on them. A 
mix of those warships, traditional and lighter, gives that 
operational flexibility to the Fleet Marine Force commander in 
support of the fleet commander, guys like Admiral Kilby in the 
future or Admiral Sawyer in the past, so that we can truly 
impose a cost on a pacing threat.
    We have to be able to move within that first island chain, 
and the lighter amphibious warship is going to allow us to do 
that. I hope that answers your question, sir.
    Mr. Wittman. Yeah, I think that gives us some concept. Tell 
me about this too. I know that as well as having smaller ships 
that are distributed, the idea too is to be able to support 
Marines on land. So, instead of having to do forceable entries 
all the time, you actually have some Marines situated in the 
region and then move them around. Say, hey, listen it is a 
flexible, adaptable force, our adversaries don't quite know 
where it is, or how it is going to operate, or what quite its 
opportunities are there, is that a complement to the ships that 
you talk about being there in theater, the larger number of 
smaller ships and moving them around? Can you give us a little 
idea on that?
    General Smith. Sir, it is absolutely complementary. An 
expeditionary advanced base, for example, that unit that may go 
in there, 50 to 60 Marines, that provides maritime strike in 
support of that fleet commander, once that unit is ashore, they 
can conduct moves across the land and not need to return to the 
sea base for some period of time. It could be hours or it could 
be days. And the force that we are designing has that ability 
to stand in, to persist inside the weapons engagement zone, not 
just the equipment but the training and the organization, so 
that that is a truly lethal, credible threat that is highly 
mobile and then returns to the sea base at a point of our 
choosing, not the point of an adversary's choosing.
    Mr. Wittman. So, your intention is to begin that execution 
in this year's budget?
    General Smith. Sir, this is the pivot. Some of the things 
General Berger took over and obviously had just--gosh, the 
budget was largely done by the time he became the Commandant, 
he made some significant changes in 2021. A lot of it was in 
training and education so that when these systems come online, 
his focus is, I have to have the unit that is prepared to use 
it. If Moore's Law, writ large, comes into effect, that unit 
has to be ready to execute using the systems available at the 
time. We can't find some--some technological solution and then 
have to create a unit to employ it.
    Our HIMARS units, our High Mobility Artillery Rocket 
Systems, for example, can fire a missile that actually strikes 
a ship. We are the littoral combat force. Why would we not do 
that? If we don't do that now, we will do that as part of this 
budget, sir.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you, Mr. Wittman.
    Mr. Golden, you get the final word.
    Mr. Golden. Thank you, Mr. Chair. Boy, General Smith, I am 
getting excited listening to you talk about this.
    General Smith. That makes two of us, sir. I get excited as 
well.
    Mr. Golden. I can tell. You know, I just want to follow up 
on that. I have been reading the Commandant's planning and 
guidance, following the blogs that are out there with Marines, 
you know, at the lower levels talking about this and thinking 
about it.
    Look, I was on deployment in Afghanistan right up on the 
border of Pakistan in a platoon-plus unit with just the LT 
[lieutenant] and a gunny [gunnery sergeant] as the people 
running the show, well out in advance, very self-sufficient, 
very flexible. Loved it. I have been on a completely different 
kind of deployment in Iraq. So, I love what you are saying 
right there about the 50- to 60-men unit.
    But, you know, one thing that comes to mind for me, as the 
Commandant talks about this pivot back towards being on the 
Navy ship, I only got to go on one short deployment cycle out 
off the coast of Virginia and do a splash, come back in, spend 
all of about 5 days on the ship. I did 4 years Active Duty, and 
on top of that, time in the Reserves.
    I feel like this is such an incredible opportunity, and the 
challenge for the Marines to be getting back to its 
foundational, you know, mission. And I just got to say, things 
don't happen so fast here, you know, kind of like I would 
compare it to that platoon I was in, in Afghanistan versus, 
like, trying to move around a division.
    Here in Congress, it sounds nice that you are going to 
start, you know, thinking about the next budget cycle to 
implement the Commandant's guidance. Start coming to talk to 
our offices now, talking to these committees now. Because if 
you start engaging next January, you may run into some 
unanticipated roadblocks. I am extending an invitation to you, 
to the Commandant, to come to my office or anyone on this 
committee, I am sure; you know, Mr. Wittman would be more than 
excited to do that.
    I wanted to ask you very quickly about that, though. You 
know, the training that goes into getting young Marines, young 
leaders, that have been fighting in the Middle East back onto 
the Navy platform and ready to fight. You know, I envision 
fighting on the ship, fighting off the ship, fighting ashore.
    Last week, when Commandant Berger was here, he said that 
the Marine Corps has benefited greatly from being a joint 
partner in the Close Combat Lethality Task Force and that the 
Marines have no choice but to continue that important work. 
Next--you know, last week, I had the Army here, or maybe that 
was a couple days ago. I lose track of time in this place. We 
had the Army here. They said they were going to take that--
halfway take that job into the Army Department and no longer 
have it be joint with the Marine Corps. You know, to me, that 
is the difference between cooperation and integration and 
coordination, like you were just talking about. And you may 
have a young Marine trigger puller, like an enlisted guy like 
myself, or a young officer there in cooperation, but it is not 
the same thing as integration in a joint service leadership 
team running that task force. And I have a lot of concerns 
about changing it from what it has been. Fighting in the 
environment you are talking about is much different than the 
Army mission, or at least it should be. So, I wanted to ask if 
you have any concerns with the proposal to move that program 
into the Army, instead of continuing the joint task force as 
General Mattis and others, including Army Major General Scales, 
envisioned to begin with.
    General Smith. Sir, flipping the tables, thank you for your 
service. Usually gets said the other way around, but thank you.
    Mr. Golden. Thank you for yours.
    General Smith. Thanks, sir. So, I just met with General 
Murray, commanding general of the Futures Command. I also lose 
track of time. So, I can't remember if it was Monday or Tuesday 
this week. But I actually don't have any concerns about the 
CCLTF, the Close Combat Lethality Task Force, begun by then 
Secretary Mattis and actually run by a guy that I fought with 
in Iraq, a guy named Joe L'Etoile, commanded 2/7 [2d Battalion, 
7th Marines] and I had 1/5 [1st Battalion, 5th Marines].
    Sir, we are so tightly tied here within the naval 
component, but I think people forget that we are extremely 
closely tied in with the Army component. We are daily in 
contact and in collaboration, true collaboration, with the Army 
on systems. And so, when that Close Combat Lethality Task Force 
goes back to the Army as the lead, it will have Marines still 
in it, sir.
    We are still completely committed because what we owe you 
is, when you can buy in bulk, quote/unquote, and save the 
taxpayer money, if we are at the 85 percent solution, we can't 
be different just to be different. We have to be together with 
them. Because we still share a--although we are the maritime 
component, we have to have the ability to project power ashore 
and sustain ourselves ashore, which is more similar in many 
ways to the Army.
    And I would say General Murray and I and his deputy are 
very closely tied in the CCLTF. I don't have concerns about 
that going back to the Army, sir. I really don't. I feel like 
we have been included, and we will continue to be included, 
coordinate where we can. Certain things as a naval character 
force are different and have to be so, but wherever possible, 
sir, we have to be in line with them.
    Mr. Golden. My top concern obviously is decisionmaking 
authority. Let's make sure the Marines that are there are 
getting the top-level support they need to speak up and make 
sure that we are thinking about the Marine Corps as well.
    And in closing, I guess the last word, Saturday, 9 a.m. I 
have got an appointment to get that buzz cut right up to about 
like yours. I try and do it once a month instead of every 
Sunday.
    General Smith. I know a couple of good barbers, sir.
    Mr. Golden. Semper Fi.
    General Smith. Semper Fidelis, sir. Thank you.
    Mr. Courtney. Great. Well, thank you, Jared, and we will 
look forward to seeing you next week, you know.
    So, well, thank you to the witnesses for being here today. 
I think, as you can tell, the members are passionate about, you 
know, our subcommittee's work, and we appreciate, again, that 
it was a good, frank discussion today, and it is going to 
continue obviously through the markup process.
    So, with that, I will declare the hearing adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 4, 2020
    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 4, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 4, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. BERGMAN

    Admiral Kilby. MyNavy HR uses simulation-enhanced training to train 
Sailors to existing and new Fleet technologies. Recruit Training 
Command (RTC) and follow-on Advanced Schools (A-Schools) use simulation 
embedded in targeted learning events to enhance training. Specifically, 
RTC uses tactile and technological simulation while transforming 
recruits into basically trained Sailors by reinforcing the five 
warfighting competencies of firefighting, damage control, seamanship, 
watch standing, and small arms handling and marksmanship during basic 
military training and recruits' culminating event, Battle Stations 21 
(BST-21). BST-21 encompasses a 12-hour, 17-scenario based evolution 
aboard the training simulator USS Trayer. The different scenarios, many 
modeled after actual Navy incidents, challenges recruits physically and 
mentally in the warfighting competencies. Upon successful completion, 
recruits graduate and either attend a follow-on rating specific A-
School or directly report to the Fleet. If attending an A-School, 
MyNavy HR further exposes the Sailor to simulation-enhanced training to 
develop their skills in their rating-specific Fleet technology.   [See 
page 12.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 4, 2020

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. WALTZ

    Mr. Waltz. There has been a lot of discussion in the full committee 
about the Navy's decision to end P-8A procurement at 119 aircraft. Last 
week, Acting Secretary Modly testified that the P-8A Poseidon is ``is 
the most effective platform that we have, for not only wide area 
search, but also localization, so that we can actually find, fix and . 
. . finish a Russian submarine.'' He called it ``an incredible weapons 
platform.''
    I am particularly concerned about the Navy Reserve squadron at NAS 
Jacksonville, FL, that operate older P-3 Orions. Last year, this 
committee authorized three new P-8A aircraft for NAS Jacksonville. The 
recent reprogramming, however, dropped that number to two total, and 
I'm afraid that won't be sufficient to operate the same mission.
    Can you tell the committee the status of VP-62 at NAS Jacksonville 
if it is limited to two new aircraft? And what impact could that have 
on the Navy's ability to continually monitor the East Coast for 
adversarial submarine threats?
    Admiral Kilby. The warfighting requirement for the P-8A is 138 
aircraft. The aircraft appropriated to the Navy in the 2020 budget 
increased the P-8A program of record to 119 aircraft. A program of 
record less than 138 aircraft accepts increased risk with regard to 
defense and deterrence capacity. This capacity risk can be mitigated 
with our Reserve Force. The Navy receiving two additional P-8A aircraft 
allows our Reserve personnel to begin the process of transitioning away 
from the P-3C toward the P-8A. VP-62 personnel would be the first to 
transition due to the training infrastructure that exists at NAS 
Jacksonville, FL. A full Reserve squadron transition of both VP-62 and 
VP-69 would require 10 additional P-8A aircraft. Without the required 
number of aircraft in each Reserve squadron (six per squadron) there 
will be increased risk with regard to our ASW defense and deterrence 
capacity.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. CNO has mentioned it will cost $600M per ship to upgrade 
the first four LCS ships. What systems would have to be upgraded to 
keep these ships in the service to their expected service life? How 
does modernizing a LCS cost more that modernizing a DDG with Aegis 
Baseline 9?
    Secretary Geurts. The $600M mentioned by the CNO is the total 
estimated cost to upgrade LCS 1-4 (not per ship). The average upgrade 
cost for one of these first four LCS of $150M is comparable to a DDG 51 
Aegis Baseline 9 modernization. LCS 1 through LCS 4 were built to a 
different technical baseline than the LCS 5 And Follow (LCS 5AF) ships. 
LCS 5AF incorporated lessons learned from the first four ships and 
included changes accounting for obsolescence incurred between the 2004 
awards of the first four ships and the 2010 awards of the LCS 5AF 
ships. The CNO's cost estimate for LCS 1 through LCS 4 included costs 
associated with regular maintenance and modernization over the FYDP, 
upgrades to bring the ships to the same configuration of the LCS 5AF 
ships and the upgrades included in the Lethality and Survivability 
(L&S) package which increase ships' defense and structure. The lists of 
upgrades that comprise those changes follows. LCS 1 & 3 Upgrades Air 
Conditioning and Refrigeration AN/WSC-9(V)1 Navy Multiband Terminal 
Automatic Identification System Aviation Support Command & Control 
Processer (C2P) Common Data Link Management System Compressed Air 
Systems Engineering Control System Fire Detection and Suppression 
Systems Fuel & Lube Oil Systems Gas Turbine Engines Intelligence Carry-
On Program Main Propulsion Diesel Engine Maritime Shipboard Terminal 
MK-160 Gunfire Control System (GCS) MK20 Electro Optical Sensor System 
(EOSS) Decoy Launching System/NULKA Personnel Protection and Hazardous 
Material Potable Water Seawater/Firemain System Surface Electronic 
Warfare Improvement Program (SEWIP Lite) Ship Structures Shipboard 
Habitability Ship's Service Diesel Generator Tactical Common Data Link 
Total Ship Computing Environment Uninterrupted Power System Watercraft 
Launch and Recovery Waterjets Weapon Systems LCS 2 & 4 Upgrades ADSI 
Multi-datalink System AN/ARC 210 VHF/UHF AN/WSC-9(V)1 Navy Multiband 
Terminal Anchoring/Mooring/Towing C2P Common Data Link Management 
System Chilled Water System Coatings and Corrosion Control Cranes and 
Lifts Damage Control/Bio Defense Doors and Closures Engineering Control 
System Fuel & Lube Oil Systems Hydraulics/Ride Control Identification 
Friend or Foe Intelligence Carry-On Program Main Propulsion Diesel 
Engine Maritime Shipboard Terminal MK-160 GCS MK20 EOSS Multi-Vehicle 
Control System Navigation Networks/CCTV/IVCS NULKA Over the Horizon 
Missile PSC-5 UHF SEWIP Lite Ship Structures Shipboard Habitability 
Ship's Service Diesel Generator Tactical Common Data Link Total Ship 
Computing Environment Waterjets Weapon Systems
    Mr. Vela. Last year you testified to the SASC that shipbuilding 
funds would be important to keep a stable workforce for building LHA-9. 
What is going to be the impact to the workforce now that those funds 
have been reprogrammed?
    Secretary Geurts. The Navy greatly values the capability that LHA-
class ships bring to the Fleet, and the FY 2021 budget request 
accelerated LHA 9 from FY 2024 to FY 2023. Even with that acceleration, 
the 4 of 2 funding appropriated by Congress in FY 2020 for additional 
acceleration was early to need. The Navy is committed to the program 
and will request funding in future budget years to fully fund the 
program in order to best support workload stability and the shipyard's 
workforce, within our overall budget constraints. The Navy will also 
award a LHA 9 Long Lead Time Materials contract in April 2020 to help 
provide stability to the industrial base and minimize any workforce 
impacts by maintaining the accelerated ship construction schedule.
    Mr. Vela. The CNO has put out a lofty goal to have all ship 
maintenance availabilities end on time. How is the acquisition strategy 
evolving to support the CNO's objective and does firm fixed-price 
contracting continue to be the right contract type? What authorities 
does the Navy need from Congress to improve ship delivery from 
maintenance availabilities? What lessons have been learned for ship 
maintenance and modernization during your tenure, and what policies 
have you put in place to leverage those lessons learned?
    Secretary Geurts. The Navy is working to support the CNO's 
objective for on-time delivery of ships from maintenance 
availabilities. The acquisition strategy will continue to use fixed 
priced type contracting while implementing new approaches to: provide 
stability and predictability to the industrial base; improve the 
completeness, accuracy and timeliness of planning; adjust maintenance 
schedules to level load the ports; and streamline Navy inspection 
points to improve efficiency. Revised acquisition strategies--including 
vertical and horizontal groupings--will provide increased workload 
stability and predictability, incentivizing industry to grow the needed 
capacity. Vertical groupings for ships with similar start dates will 
include multiple overlapping availabilities within a single 
solicitation. The Navy awarded the first three-ship vertical grouping 
contract in February 2019 for USS Arleigh Burke (DDG 51), USS Bulkeley 
(DDG 84) and USS Gunston Hall (LSD 44). Horizontal groupings for ship 
availabilities occurring in a series will include sequential 
availabilities within a single solicitation. The first horizontal 
grouping contract was awarded in September 2019 for USS Chosin (CG 65) 
and USS Cape St. George (CG 71). By awarding multiple availabilities, 
industry gets a backlog of work that creates confidence in hiring and 
retaining a skilled workforce and investment in infrastructure. 
Additionally, the Navy has worked with the Fleet to make maintenance 
schedule changes when necessary to level load the ports, ensuring that 
there is sufficient capacity to execute the planned work within the 
port. The Navy has submitted a FY 2021 legislative proposal requesting 
Congress provide additional flexibility to use expired funds under 31 
USC Sec. 1553(c) for changes in contract scope for work on ship 
overhauls, modernization, maintenance and repair, and mitigate delays 
in ship availabilities that result from the time-consuming upward 
obligation process. In addition, the Navy has requested funding in our 
FY 2021 budget to continue the pilot program that authorizes private 
contract ship maintenance for the Pacific fleet through the Other 
Procurement Navy 5 of 2 (OPN) account. We will continue to monitor the 
progress of the OPN pilot with the Commander, Pacific Fleet to 
determine how this new flexibility improves performance and efficiency 
in ship maintenance.
    Mr. Vela. How will Marine Corps modernization requirements evolve 
as a result of the Commandant's Planning Guidance? Can you provide some 
examples of where the Marine Corps is partnering with the Army Futures 
Command?
    General Smith. The Commandant's Planning Guidance directs the 
Marine Corps to realign our efforts to pursue capabilities for a more 
lethal force in order to counter peer adversaries. As a result, in the 
fiscal year 2021 budget request, the Marine Corps has sought to 
modernize by reallocating funds to our highest priority requirements. 
These key investments include ground-based long-range precision fires, 
unmanned systems, air and missile defense, command and control systems 
for a degraded environment, ground mobility modernization, and emerging 
capabilities. The Marine Corps will continue to wargame and experiment 
our concepts and plans through a constant, analytical, and iterative 
approach. We will make adjustments to our modernization requirements 
along the way, and as the smallest service, we will aim to be the most 
nimble. The Marine Corps Combat Development Command and Army Futures 
Command are in direct contact and collaborate in every instance 
possible. We are partnering on programs for the individual Marine and 
Soldier, such as personal protective equipment, radios, individual 
weapons, and polymer ammunition. Additionally, the Marine Corps and 
Army are currently collaborating on larger programs, such as the joint 
light tactical vehicle and ground-launched missiles.

                                  [all]
</pre></body></html>
